<html>
<title> - LONG-TERM SOLVENCY OF THE HIGHWAY TRUST FUND: LESSONS LEARNED FROM THE SURFACE TRANSPORTATION SYSTEM FUNDING ALTERNATIVES PROGRAM AND OTHER USER-BASED REVENUE SOLUTIONS, AND HOW FUNDING UNCERTAINTY AFFECTS THE HIGHWAY PROGRAMS</title>
<body><pre>[Senate Hearing 117-19]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 117-19
 
LONG-TERM SOLVENCY OF THE HIGHWAY TRUST FUND: LESSONS LEARNED FROM THE 
 SURFACE TRANSPORTATION SYSTEM FUNDING ALTERNATIVES PROGRAM AND OTHER 
 USER-BASED REVENUE SOLUTIONS, AND HOW FUNDING UNCERTAINTY AFFECTS THE 
                            HIGHWAY PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  





        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-757 PDF            WASHINGTON : 2021 

         
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 14, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     4
Lummis, Hon. Cynthia M., U.S. Senator from the State of Wyoming, 
  prepared statement.............................................    95

                               WITNESSES

Kile, Joseph, Ph.D., Director of Microeconomic Analysis, 
  Congressional Budget Office....................................     5
    Prepared statement...........................................     8
    Response to an additional question from Senator Carper.......    23
Basso, Jack, Chair, Mileage-Based User Fee Alliance..............    24
    Prepared statement...........................................    26
Hendren, Patricia G., Ph.D., Executive Director, Eastern 
  Transportation Coalition.......................................    44
    Prepared statement...........................................    46
Poole, Robert, Director of Transportation Policy, Reason 
  Foundation.....................................................    50
    Prepared statement...........................................    53
Shinkle, Douglas, Transportation Program Director, National 
  Conference of State Legislatures...............................    59
    Prepared statement...........................................    62
    Response to an additional question from Senator Inhofe.......    74

                          ADDITIONAL MATERIAL

Letter to:
    U.S. Senator Charles Schumer et al. from NATSO et al., April 
      9, 2021....................................................    83
    U.S. Representative Peter DeFazio et al. from the American 
      Association of State Highway and Transportation Officials 
      et al., April 13, 2021.....................................   103
    Senators Carper and Capito from the Cato Institute, April 19, 
      2021.......................................................   106
    Senators Carper and Capito from the Bipartisan Policy Center, 
      April 12, 2021.............................................   110
    Senators Carper and Capito from the National Association of 
      Manufacturers, April 28, 2021..............................   113
    Senators Carper and Capito from the National Stone, Sand & 
      Gravel Association, April 14, 2021.........................   115
Statement for the Record from the American Association of State 
  Highway and Transportation Officials, April 14, 2021...........   117
A Practical Analysis of a National VMT Tax System, prepared by 
  the American Transportation Research Institute, March 2021.....   125
Executive Summary, A Practical Analysis of a National VMT Tax 
  System, prepared by the American Transportation Research 
  Institute, March 2021..........................................   177
Statement of the American Trucking Associations, April 14, 2021..   178
VMT Talking Points, the American Trucking Associations...........   187
Statement of the American Truck Dealers, April 14, 2021..........   188
Statement for the Record, the International Bridge, Tunnel and 
  Turnpike Association, April 14, 2021...........................   189
Statement for the Record, the NAFA Fleet Management Association, 
  April 14, 2021.................................................   193
Road Usage Charge at the National-Scale: Recommendations for 
  Building a Solid Foundation, Oregon Department of 
  Transportation, April 19, 2021.................................   197
Written Statement, the State of Washington Transportation 
  Commission, April 14, 2021.....................................   201


LONG-TERM SOLVENCY OF THE HIGHWAY TRUST FUND: LESSONS LEARNED FROM THE 
 SURFACE TRANSPORTATION SYSTEM FUNDING ALTERNATIVES PROGRAM AND OTHER 
 USER-BASED REVENUE SOLUTIONS, AND HOW FUNDING UNCERTAINTY AFFECTS THE 
                            HIGHWAY PROGRAMS

                              ----------                              


                       WEDNESDAY, APRIL 14, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Merkley, Kelly, Padilla, Inhofe, Cramer, Lummis, Sullivan, and 
Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I was just mentioning the longest title I 
have ever seen in a piece of legislation, and frankly, one of 
the most timely, and I think, interesting hearings that we are 
going to have in some time.
    I mentioned that we hope and expect to have our water 
legislation out on the floor a week from now, and I think we 
are going to have a vote today on another nominee out of our 
Committee, the nomination of Brenda Mallory, who came out of 
Committee on a bipartisan vote.
    She has been nominated to be the Chair of CEQ, and I 
understand that somebody told me earlier today that 13 past CEO 
and EPA appointees, 13 past Republican CEO and EPA appointees, 
including a former CEQ chair and four different Republican EPA 
administrators publicly praised and urged her confirmation. 
They include Bill Reilly, Christine Todd Whitman, Michael 
Leavitt, Steve Johnson, and James Kavanaugh.
    She has also been endorsed by, I think, since last we met, 
by the U.S. Chamber of Commerce. I would ask that you all keep 
that in mind when we vote later today.
    When I was new in the Senate, some of us, I knew when I got 
here, Jim Inhofe and I served together in the House. A couple 
of others had served, too, Chuck Schumer and I, Dick Durbin and 
I, a number of us had served together.
    One of the people I didn't, and one of the main things I 
decided early to do in the Senate is to the folks I would never 
met, didn't serve with in the House, didn't serve with as 
Governor, I decided to just go have a cup of coffee with them 
in their offices. So I would ask one after the other, after the 
other, and make my rounds.
    One of the last people I asked this was a guy who sat right 
behind me on the Senate floor named Ted Kennedy. I told him 
what I was doing, getting to know people I didn't know, and he 
said, ``Why don't you come to my hideaway? We will have lunch 
together.'' I said, ``Really?'' and he said ``Yes.'' Two weeks 
later, we were in his hideaway, and we had lunch together.
    One of things I asked him then was, I said, ``Why is it 
that all these Republicans, why do all these Republicans want 
to be your cosponsor on their big bills? Why is that?'' He said 
these words. He said, ``I am always willing to compromise on 
policy, never willing to compromise on principle.'' Think about 
it. Always willing to compromise on policy, never willing to 
compromise on principle.
    So, I want to start this hearing thinking about, we are 
going to have to compromise on surface transportation 
legislation as we go along, with our colleagues on the 
Committee and the Senate and in the House and with the 
Administration. But there are some principles I hope we can 
agree on that we won't vary far away from, and one of those is 
that roads, highways, and bridges in this country are in bad 
shape. Something needs to be done about it, and we are among 
the most responsible people for making that happen.
    The second principle is that climate change is real. We 
need to combat it; we need to adapt to it. We need to build 
back better. We need to focus on resilience with all the 
extreme weather that we are facing.
    The third principle would be that things that are worth 
having are worth paying for. Some people describe me as a 
recovering Governor. I am also a recovering State treasurer. I 
was the treasurer of a State with the worst credit rating in 
the country when I was 29 years old, and I have always believed 
that things worth having are worth paying for.
    The last principle I hope we can adhere to is those who use 
our roads and highways and bridges have the responsibility to 
help pay for them.
    Now, there are, in my State, and I am not sure, but in your 
States, in my State, there are a number of major pay fors for 
roads, highways, bridges. Gas and diesel tax, vehicle 
registration, sales taxes when people buy vehicles, driver's 
licenses. The 800 pound gorilla forever has been the gas and 
diesel tax for decades. But I would add to that the times are 
changing.
    I don't think Senator Stabenow is here yet, but about a 
dozen or so years ago, she and I were at the Detroit Auto Show. 
She was kind enough to introduce me to Mary Barra, who is, I 
think, just about to become CEO of GM.
    One of the GM products that year was selected, I think, as 
a car of the year, it was a Chevrolet Volt. Chevrolet Volt, 
interestingly, was a hybrid. It got 38 miles on a charge. 
Thirty-eight miles on a charge, and after that, it was a 
traditional hybrid, you are on gasoline, but anyway, it was the 
car of the year.
    That was then, and I went out during recess while we were 
on break with my oldest son. We went out to buy a vehicle to 
replace my 2001 Chrysler Town and Country minivan, which has 
almost 600,000 miles on it. We drove, among other things, a 
Chevrolet Volt. It gets 300 miles on a charge.
    We also drove a Ford Mustang that gets over 300 miles on a 
charge. Ford is about to put out an F-150 pickup truck, all 
electric. I thought I would never see the day that we have an 
electric F-150 truck, but it is a top selling vehicle in the 
country, as you know.
    GM says they are not going to be selling, building and 
selling any gas or diesel powered vehicles after 2035. They are 
going to phase them out. Ford is expected to match or better 
that.
    Tesla, we drove some Teslas during the break. One of them 
is a Y model that gets 350 miles on a charge. There is another 
vehicle there that we took a look at that gets over 400 miles 
on a charge.
    Not everybody's into electric. We have folks at Toyota, a 
whole division of their company that is called Mirai, that is 
Japanese for future. They are focused on fuel cells, hydrogen 
and fuel cells. The waste product that comes out of that 
combination is water that you can drink.
    GM and Honda are partnering up on fuel cells as well, and 
there is a South Korean car company, Hyundai, that apparently 
has a whole division of their company that focuses on fuel 
cells. They use hydrogen, and they are expected to use a lot of 
it in the years to come.
    Gas and diesel revenues, our traditional bread and butter 
for building roads, highways, bridges, maintain them, are not 
going to dry up and go away overnight. We are told that the 
average number of years a vehicle has on the road is about 15 
years, so we are going to be using gas and diesel for some 
time, but by less going forward.
    I think it was Stephen Stills, Buffalo Springfield, who 
once sang ``something's happening here, just what it is, ain't 
exactly clear,'' but I think it is becoming clear what's going 
on. We have the opportunity to get ahead of it or to get behind 
it. We need to track the transportation bill, surface 
transportation bill, that enables us to get in front of what is 
happening here.
    The question is, will the next generation of vehicles be 
built here, will they be designed here, manufactured here, sold 
here? Or will they be built other places around the world? Will 
they help us in the battle against climate change, or not?
    Will we look this adversity in the face, climate change and 
all, and instead of just finding despair, find opportunity? My 
hope is that we will find opportunity, and that we will seize 
the day. Part of that is figuring out how to build the surface 
transportation system of the future, and the ways it affects 
resilience, climate change, and our needs to move ourselves and 
our goods around the country in cost effective, safe, and 
climate friendly ways.
    With that, I would ask unanimous consent that my written 
statement be inserted for the record.
    I welcome everybody again. This is, I think, an enormously 
important, enormously important hearing and will help us to see 
the future more clearly and be ready for it. Thank you.
    Senator Capito.
    [The prepared statement of Senator Carper was not received 
at time of print.]

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, for calling this 
hearing today, and for your ongoing commitment to this 
bipartisan process for the surface transportation 
reauthorization bill.
    I would also like to thank our witnesses for joining us 
here today. We look forward to hearing from you regarding the 
current status of the Highway Trust Fund and recommendations 
for funding and financing solutions to address the national 
transportation infrastructure needs of our Nation, many of 
which our Chairman just spoke about.
    Passing a bipartisan surface transportation reauthorization 
bill continues to be my top priority as the Ranking Member in 
this Committee. Our Committee has a strong record of developing 
these bills in a bipartisan manner, and we are in the process 
of coming together once again to develop a bill that includes 
input from both parties and the stakeholder community.
    From my perspective, this bill must enable long-term 
investment in our Nation's roads and bridges, but do so in a 
fiscally responsible manner, without partisan or lightning rod 
pay fors that could sink a bipartisan bill.
    We need to give flexibility. I spent the last 2 weeks 
traveling my State, as many of us did, talking with our road 
and transportation sector. Flexibility is absolutely critical 
to our States and communities to address their unique 
transportation needs. The flat areas of Oklahoma are nothing 
like the mountains of West Virginia, so if you are going to try 
to put us both in the same bucket, it could be very 
constraining.
    We need to keep the Federal interest focused on providing a 
connected network of roads and bridges to ensure that all 
communities and the economy can thrive, and also, safety is 
critical in our bridges.
    We need to facilitate efficient delivery of projects so 
that we can improve the safety and resiliency of our surface 
transportation system, and we need to drive innovation. 
Innovation is critical to help pave the way for the systems of 
the future.
    I am willing to work on all of these with all of my 
colleagues to get these goals into our bills. We need to have 
that give and take of the bipartisan process to produce 
legislation that can make it to the President's desk.
    It will take work from all levels of government and the 
private sector to meet the Nation's transportation 
infrastructure needs, and we will have to take an all hands on 
deck approach.
    The Highway Trust Fund, which is the source of funding for 
Federal surface transportation projects, is once again, as it 
has over the last several years, facing a shortfall. This 
shortfall must be addressed for us to move forward with the 
bill. We have to work together here to find this bipartisan, 
long-term solution for the trust fund shortfall. All of us who 
use our surface transportation system should contribute to its 
upkeep and expansion. Today, that is not the case with all of 
the users.
    We should consider the unique impacts on certain Americans, 
including those in rural areas and lower income individuals, 
and we should try to minimize administrative and cost burdens. 
We should also try to provide States and other non-Federal 
partners with options to use various financing tools.
    This is not an easy problem to solve. I am willing to 
consider various solutions so that we can discuss how to pay 
for our Nation's infrastructure.
    Since our Committee last met, President Biden has proposed 
a type of pay that I have cautioned against in the past. I am 
concerned about the effect that the tax increases proposed by 
the Administration will have on our Nation's growth, 
particularly coming out of this pandemic.
    I look forward to hearing from our witnesses today on an 
array of solutions and innovative approaches to raise revenue 
for the transportation needs across the Nation that we can 
achieve together.
    I am committed to working with all of my colleagues both 
here in the Committee and in the Senate in general and across 
the Capitol, and with the Administration to see that we can get 
there, where we need to be.
    Thank you, Mr. Chairman, and I yield the balance of my 
time.
    Senator Carper. Senator Capito, thanks. Thank you very, 
very much.
    I think now we will have the opportunity to meet and greet 
our witnesses. We are blessed with this panel today. I had a 
chance to meet in person a couple of them, so thanking those 
that are here today in person and those that are joining us 
virtually. We very much appreciate your participation.
    I want to thank our staffs, both the minority and majority 
side for bringing together an excellent team of witnesses.
    Let me start by introducing Joe Kile. Mr. Kile is the 
Director of Microeconomic Analysis at the Congressional Budget 
Office, CBO.
    Mr. Kile, I ask of you, go ahead and please proceed with 
your statement at this time. Thank you.

  STATEMENT OF JOSEPH KILE, PH.D., DIRECTOR OF MICROECONOMIC 
             ANALYSIS, CONGRESSIONAL BUDGET OFFICE

    Mr. Kile. Thank you, and good morning, Chairman Carper, 
Ranking Member Capito, and members of the Committee. Thank you 
for inviting me to today's hearing.
    I will briefly touch on three points. First is the status 
of the Highway Trust Fund. Second is some options for spending 
on our highways, and third is options for generating revenues 
for the trust fund.
    For more than a decade, the Government has been spending 
more each year from the Highway Trust Fund than the revenues 
collected for it. Those revenues come mostly from taxes on 
gasoline and diesel fuel, as well as various taxes on heavy 
trucks. CBO estimates that the balances in both the Highway 
account and the Transit account of the trust fund will be 
exhausted in 2022.
    The total shortfall over the next 10 years is projected to 
be $195 billion in CBO's baseline estimates. If the trust fund 
balances were to be exhausted, the Federal Government would not 
be able to make payments to States on a timely basis. As a 
result, States would face challenges planning for 
transportation projects because of uncertainty about the amount 
or timing of payments from the treasury.
    Turning to spending, the Federal Government spent $47 
billion on highways in 2019. Almost all of that was through 
grants from the trust fund to State and local governments for 
capital projects, that is, for building new roads and 
rebuilding existing ones. As you consider options for 
reauthorizing surface transportation, you face many choices 
about how much to spend. Let me illustrate just two of them.
    If you want to maintain the current services and condition 
and performance of the highway system, the Government would 
need to spend at least $55 billion per year over the next 
decade. Alternatively, if you want to fund all projects for 
which the benefits exceed the costs, the Government would need 
to spend at least $71 billion per year. Of course, the amount 
of money spent needed to generate those benefits would depend 
on the quality of the projects selected.
    Any increase in spending from the trust fund would require 
additional income to it. One approach would be to require users 
of the highway system to bear more of those costs. When people 
drive, they impose costs they do not pay for. Those costs 
include wear and tear on roads and bridges, delay from traffic 
congestion, and the harmful effects of exhaust emissions. The 
combination of taxes on fuel and mileage that makes users pay 
for more of those costs would make use of the system more 
efficient.
    If you want to increase revenues by charging users of a 
system, you have various options. One option would be to 
increase the existing taxes on gasoline and diesel fuel. Those 
taxes have been unchanged since 1993. Increasing them by 15 
cents per gallon, as an example, and then indexing them to 
inflation would raise $26 billion of revenue for the trust fund 
in the first year, and that amount would gradually increase 
over time.
    Another option would be to impose new taxes on users of the 
system. For instance, the Government could impose a tax on 
vehicle miles traveled. Some States already have similar VMT 
taxes on commercial trucks. CBO recently found that each 1 cent 
per mile of Federal tax would raise $2.6 billion per year if it 
was levied on all commercial trucks and all roads.
    It is important to note that implementing a new tax would 
require resolving several practical steps to assess and collect 
the tax, and implementing new taxes would probably be more 
costly to the Government than increasing existing ones. Some 
approaches would also potentially raise privacy concerns, 
especially if they were applied to personal vehicles.
    New approaches to taxing highways could be assessed through 
demonstration projects. Such projects could evaluate different 
approaches to key components of a tax. For instance, projects 
might apply taxes differently depending on the type of vehicle 
or the type of road. They might apply taxes differently 
depending on the time of day or the location of the travel, and 
they might assess or collect the tax in different ways.
    An alternative to imposing the cost of increased spending 
on users would be to distribute those costs more broadly. Since 
2008, the Federal Government has transferred over $150 billion 
from the General Fund to the Treasury to the Highway Trust 
Fund. You could adopt that approach again. Compared with other 
options, such as increasing the gas tax, funding highways 
through broad based taxes would have the advantage of imposing 
a smaller burden on low income households relative to their 
income.
    I will stop there, and I would be happy to answer any 
questions you might have.
    Thank you.
    [The prepared statement of Mr. Kile follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Senator Carper. Thank you, Mr. Kile. You have given us a 
lot to think about in a very short period of time.
    Our next witness is Jack Basso.
    Jack, nice to see you up on the screen. Chair of the 
Mileage-Based User Fee Alliance, a nonprofit dealing with all 
aspects of mileage-based user fees, Mr. Basso. Thanks for all 
your work over the years. It is great to have been able to work 
with you in many venues.
    Thank you for joining us today, and you are recognized to 
present your testimony. Thank you, Jack.

                   STATEMENT OF JACK BASSO, 
             CHAIR, MILEAGE-BASED USER FEE ALLIANCE

    Mr. Basso. Thank you, Mr. Chairman, and members of the 
Committee for holding this hearing on the subject of mileage-
based user fees and the Highway Trust Fund alternatives. I am 
the Chair of the Board of the Mileage-Based User Fee Alliance.
    First, I want to recognize the recent proposal from the 
Biden administration giving priority to drastically increased 
infrastructure investment. There is a great need for action, we 
all agree, I think. In my testimony, I highlight the extent of 
the needs and look forward to finding ways to fund those needs 
using a variety of creditable sources.
    We at the Alliance have been working to provide education, 
research, understanding new ways to collect revenue for surface 
transportation investment. Since 2008, as has been mentioned, 
revenue to the trust fund has dramatically fallen short.
    Thirteen years ago, Congress created two commissions to 
make recommendations as to alternatives to pay for trust funded 
programs. They both concluded that mileage-based user fees 
would be one of the most effective ways to do that.
    A total of 20 States over the past 5 years, with the 
assistance of the Federal STSFA program, have launched major 
tests, a variety of pilots, designed to examine the feasibility 
of conducting mileage-based user fee tests and support the 
needs, were conducted. A great deal has been learned from them. 
Let me just highlight a few.
    First of all, the largest scale personalized public 
outreach effort in the country, 300,000 individuals and 
businesses were surveyed in Hawaii, and 50 percent of the 
surveyors responded, yielding a wealth of data on public 
preferences for road user charges. Washington State allowed a 
year long pilot of GPS and non-GPS alternatives and gathered a 
great deal of facts for the participants.
    Oregon was the first program in the U.S. in 6 years ago to 
expand its knowledge in inter-operability of many of the items 
for existing programs. California advanced a 5,000 vehicle 
pilot that expands the knowledge of rural, tribal, and equity 
concerns. Minnesota's pilot funding allows for demonstrate the 
use of broad technologies in mobility areas.
    I submitted testimony that includes additional information, 
but for the sake of time, I pulled these few samples. Dr. 
Hendren will talk, I know, about the Eastern Coalition and 
their activities.
    I know that the U.S. is not alone in moving to a mileage-
based user fee. New Zealand, Germany, and Australia have been 
advancing programs and pilots of their own for that purpose.
    At this point, the next step to test the approach to a 
national pilot. We also strongly believe that additional funds 
should be made available to the State pilots, clearly to 
preserve the use of pay principle, and the need to make changes 
in our system. MBUFA recognizes the urgency to develop and 
implement sustainable funding, and we stand by ready to be of 
assistance and help with a 50 State system pilot.
    The next step is to synthesize what the States learned in 
order to identify the most promising alternatives essential to 
a national system. As America expands its electric vehicles 
fleet, there is a need to be able to collect road user charges, 
and the need will become self-evident.
    There is a question of equity, and the pilots, all of them, 
include analyses of equity issues and what might be done. The 
Alliance has provided the Committee with a number of 
considerations that we believe will enhance such a national 
pilot.
    In conclusion, we wish to be supportive of Congress in its 
efforts to advance investment in surface transportation 
infrastructure.
    Thank you.
    [The prepared statement of Mr. Basso follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Carper. Thank you, Mr. Basso.
    I would now like to recognize Dr. Patricia Hendren, the 
Executive Director of the Eastern Transportation Council.
    Welcome to our Committee, Dr. Hendren, and you are 
recognized. Please present your testimony. Thank you.

 STATEMENT OF PATRICIA G. HENDREN, PH.D., EXECUTIVE DIRECTOR, 
                EASTERN TRANSPORTATION COALITION

    Ms. Hendren. Chairman Carper, Ranking Member Capito, and 
members of the Committee, it is an honor to speak to you today 
about how we can bring a sustainable funding model to our 
transportation system.
    My name is Dr. Patricia Hendren, and I am the Executive 
Director of the Eastern Transportation Coalition, a partnership 
of 17 States and Washington, DC. For more than 25 years, the 
Coalition has brought together transportation agencies to push 
innovation and bring solutions to the Eastern Seaboard.
    As part of the Surface Transportation System Funding 
Alternative Grant Program, we have been investigating the 
viability of a mileage-based usage fee, or MBUF. The 
cornerstone of the coalition's work is multi-State pilots, real 
world data analysis, and connecting directly to the drivers to 
figure out the feasibility of replacing the fuel tax with a 
distance-based approach.
    We are talking about MBUF today because we have lost the 
connection between how much a driver uses the road and how much 
they pay for it. The concept of a user fee was introduced with 
Oregon's State fuel tax in 1919. The premise was simple: The 
more you drove, the more fuel you purchased, and the more you 
contributed to roads and bridges.
    Over the last 100 years, our vehicles have changed 
dramatically, with vehicles going farther on less fuel and some 
vehicles using no fuel at all. Though this has been great for 
our wallets and the environment, the long-term sustainability 
of the fuel tax is in jeopardy. Our work, as well as pilots and 
programs around the country, have shown that a mileage-based 
user fee is a viable alternative.
    The Coalition has conducted five demonstration pilots: 
Three multi-State passenger pilots, a multi-State truck pilot, 
and a national truck pilot. We have taken the study of user 
fees from theory to practice to show how MBUF would function in 
an actual operating environment and how fuel tax could 
transition to MBUF over time.
    Our research shows that an MBUF implementation strategy 
must address four key elements. First, public education.
    By and large, the public does not realize that we are 
facing a transportation funding problem. About two-thirds of 
people we surveyed thought funding was increasing or staying 
the same, while in fact, it is decreasing. To start a 
conversation about transportation funding with the public, our 
work has shown it is essential to first connect quality of life 
benefits, such as safe routes to schools, work, and recreation, 
to a strong transportation system.
    To move forward with a new, sustainable funding approach, 
we are looking for Federal leadership on a national education 
campaign to expand knowledge about the importance of 
transportation and the need for change.
    Second, privacy. In all of our pilots, participants 
expressed early concerns about privacy. However, these concerns 
fell significantly over the course of the pilot, as people 
experienced MBUF firsthand. For example, in our recent 
passenger vehicle pilot, participants who ranked privacy as a 
high concern dropped from 49 percent down to 15 percent. Our 
findings, which are consistent with pilots performed around the 
country, highlight the value of continuing State and multi-
State pilots as a means to address the public's very real 
privacy concerns.
    Third, our Nation is made of urban, suburban, and vast 
rural areas. To understand what a shift to MBUF would mean for 
different communities, we conducted an in depth analysis using 
State data that showed rural drivers will generally pay 
slightly less with MBUF than they currently do under the fuel 
tax. In other words, rural drivers often fare better with MBUF.
    A key aspect of MBUF exploration needs to be the expansion 
of this type of analysis to better understand how a change in 
how we fund transportation would impact individual households, 
as well as different socioeconomic groups.
    Finally, the motor carrier industry. As heavy users and 
payers, truckers must be included in any transportation funding 
exploration. Our national and multi-State truck pilots brought 
truckers directly into the MBUF conversation, and showed that 
using the same MBUF approach for cars and trucks or even the 
same approach for all trucks can end up penalizing fuel 
efficient trucks and lead to other unintended consequences. A 
viable MBUF system must reflect the complexity of the trucking 
industry and understand that trucks are not big cars.
    We believe any future transportation funding model must 
address all users and build on the work done to date with the 
trucking industry.
    In conclusion, changing from a 100 year old fuel tax system 
to something new will not be easy. At the Coalition, we have 
designed our multi-State work to show how MBUF affects actual 
drivers across a variety of real world environments and to 
bring forth insights about how MBUF would work on a national 
scale.
    All the work that we have done has been made possible by 
the grant program that this Committee had the wisdom to create 
as part of the FAST Act. Thank you for your leadership.
    Continuing to work together, I am confident that we can 
find a permanent solution that sustainably funds our highways 
and bridges and keeps our country moving and thriving.
    Thank you.
    [The prepared statement of Ms. Hendren follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. Dr. Hendren, thank you very much.
    Now, we are going to turn to Robert Poole of the Reason 
Foundation.
    Mr. Poole, please proceed with your testimony when you are 
ready.
    Mr. Poole, you are recognized.

 STATEMENT OF ROBERT POOLE, DIRECTOR OF TRANSPORTATION POLICY, 
                       REASON FOUNDATION

    Mr. Poole. Thank you, Chairman Carper, Ranking Member 
Capito. Are you hearing me?
    Senator Carper. Loud and clear.
    Mr. Poole. Very good, thank you.
    And members, thanks very much for inviting me today.
    I have been doing transportation policy research for more 
than three decades and have served on a number of committees of 
the Transportation Research Board. One of the most important of 
those was in 2005. It was the first serious national look at 
the long-term viability of fuel taxes, and our report, 
published in 2006, concluded that they would not be sustainable 
for the 21st century.
    About 5 years later, Congress, as I think Jack Basso 
mentioned, appointed the Infrastructure Financing Commission. 
My colleague at Reason, Adrian Moore, served on that. It 
clearly, after evaluating about 15 alternatives, concluded that 
charging per mile driven rather than per gallon consumed was 
the most viable alternative going forward.
    In my testimony, I suggest four ideas for dealing with the 
sustainability of the trust fund.
    First of all, I suggest--the Congressional Research Service 
suggested in a very recent bulletin, one short-term fix for the 
trust fund would be to restore the original user pays, users 
benefit principle that started, as Dr. Hendren mentioned, with 
Oregon's first gas tax in 1919, and that is to put all the 
money raised from highway users toward the highway program.
    That would almost cover the amount that is currently being 
spent each year on the highways. That would, of course, mean 
shifting the non-highway programs to the general fund, and 
doing this openly, rather than through subterfuge, in effect, 
of finding general fund money and putting it into the trust 
fund and then taking it out again. Avoid the middleman, and do 
it straightforwardly, which reflects the large general fund 
commitments planned in the Administration's American Jobs Plan.
    My second point is that many needed transportation mega-
projects, projects on a billion dollar scale or more, are not 
going to be accommodated by a short-term fix for the trust 
fund, nor in the Administration's plan. There is just simply 
not enough money there to rebuild the interstate highways and 
replace many of the major billion dollar scale bridges that 
need replacement.
    There is an alternate way to bring in private capital, 
which could be very, very important for these kinds of projects 
specifically. The interstate highway reconstruction that was 
called for in the big TRB report that Congress asked for 
estimated $1 trillion over the next 20 years. I think that 
estimate is low, both in terms of cost and in timeframe. But a 
lot of those projects really need to be done, and hedge funds 
and other institutional investors would love to invest in long-
term revenue generating infrastructure.
    So Congress could open the door, as I suggested in the 
recent Wall Street Journal piece, to this kind of private 
investment, but making two changes with virtually no budgetary 
impact. One would be to expand the current tax exempt private 
activity bond program, which has exhausted its $15 billion 
original cap, make that much larger.
    Second, make sure that the language makes it clear that 
these can be financing not only new capacity, which is the 
focus of the original program, but to fix existing 
infrastructure that needs to be rebuilt and modernized. That is 
not at all clear in the current legislative language, and that 
needs to be made clear.
    The other change would be to expand a small Federal pilot 
program that allows only three States to each rebuild one 
interstate using toll finance. There are a number of States 
that are really studying this, that Congress could expand that 
to all 50 States and allow any State that chooses to 
participate to rebuild all of their interstates, which would 
make much better sense than simply singling out one, which 
would be politically very difficult.
    Third, I certainly agree with the need. The Reason 
Foundation is a charter founding member of the Mileage-Based 
Users Fee Alliance. I second the comments that our previous 
witnesses have made about the need for more pilot projects, 
particularly multi-State pilot projects and more projects 
getting involved, long haul truckers, which travel interstate. 
There are lots of different issues that need to be addressed.
    We have learned a lot from the existing pilots, but most 
States have not participated in a pilot. As Dr. Hendren pointed 
out, the actual participation of people, including, in many 
cases, State legislators, has a powerful educational impact, 
which we are not going to get a national per mile system until 
we get public support across all 50 States in my view. That is 
critically important.
    Also, institutions, what institutions are going to be 
needed to play key roles? Departments of motor vehicles, 
perhaps, the International Fuel Tax Agreement among truckers; 
there are things that need to be explored in a lot more detail 
than the current pilots have done.
    I want to close with one sort of more philosophical point, 
and that is there seems to be a growing idea that there is a 
conflict between well funded and somewhat expanded highway 
system and the need to combat climate change. I want to call 
your attention to the long-term nature of both of these 
problems.
    The transition to electricity is going to proceed at a much 
faster pace, it appears, given the commitments of auto 
companies, the Federal Government, and many State governments. 
At the same time, rebuilding the interstate highway system is 
not going to happen overnight. If some corridors, particularly 
truck heavy corridors need more lanes, you are talking about a 
long-term prospect here of maybe 15 years before the first 
major rebuilding can be completed, if the designs were there 
today, and probably 30 years until the whole systems are 
rebuilt and modernized.
    During this time period, we are going to be electrifying 
transportation, so the idea that we shouldn't let VMT, vehicle 
miles of travel, expand because of climate change, I think is a 
very short sighted view. Long-term future is going to require 
more capacity for trucks. Autonomous vehicles are likely to 
take market share away from short haul flying and onto 
highways, so we need to think all of these problems long-term 
together.
    That concludes my testimony, and I am happy to answer 
questions when the time comes.
    [The prepared statement of Mr. Poole follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. Thanks a whole lot, Mr. Poole. You have 
given us a lot to think about here.
    Our final witness for this morning's panel is Douglas 
Shinkle. Mr. Shinkle is the Transportation Program Director 
within the Environment, Energy, and Transportation Program, the 
National Conference of State Legislatures.
    Mr. Shinkle, thank you for joining us this morning. You are 
recognized at this time to present your testimony. Please, go 
ahead.

STATEMENT OF DOUGLAS SHINKLE, TRANSPORTATION PROGRAM DIRECTOR, 
           NATIONAL CONFERENCE OF STATE LEGISLATURES

    Mr. Shinkle. Chairman Carper, Ranking Member Capito, and 
distinguished members of the Senate Environment and Public 
Works Committee, my name is Douglas Shinkle, and I am the 
Transportation Program Director at the National Conference of 
State Legislatures, NCSL.
    NCSL is the bipartisan organization representing the 50 
State legislatures and the legislatures of our Nation's 
commonwealths, territories, possessions, and the District of 
Columbia. Our mission is to strengthen the institution of the 
legislatures, provide connections between the States, and serve 
as the voice of State legislatures in the Federal Government.
    Mr. Chairman and Ranking Member, I would like to take this 
opportunity to thank you and the Committee for your leadership 
on the important issue of transportation funding and financing, 
not just with today's hearing, but also on the Committee's work 
on surface transportation reauthorization.
    As the previous witnesses have mentioned, revenue flowing 
into the Highway Trust Fund has proven to be insufficient to 
support surface transportation programs. As such, since the 
FAST Act, States across the Nation have worked to research, 
develop, and deploy new funding mechanisms to meet their own 
transportation funding needs.
    We very much thank Congress for the Surface Transportation 
System Funding Alternative Program, STSFA, which was 
established in the FAST Act, and we do urge Congress to build 
upon that and support a new user fee, formula-based 
transportation funding mechanism to provide the much needed 
investment in the Nation's transportation infrastructure.
    I am going to spend a little bit of time just going over 
some of the most common and notable State transportation 
revenue options, with a focus on user-based revenue sources. I 
will just briefly touch on gas taxes, since I think we all have 
a good sense of how those work and what they look like. I will 
note, since 2013, 30 States and the District of Columbia have 
enacted legislation to increase gas taxes. Those gas tax 
increases have ranged from 2 to 23 cents. Twenty-two States and 
the District of Columbia have a variable rate gas tax that 
adjusts, to some degree, with inflation or prices without 
regular legislative action.
    Let me talk about electric vehicle fees a little bit, 
because that is something that is certainly on the mind of 
State legislatures at the moment. That is one widely adopted 
policy approach to address funding shortfalls related to the 
declining gas tax revenues is to apply a separate, additional 
registration fee for plug in, electric, or hybrid vehicles. In 
fact, 28 States have such a fee for electric vehicles, and of 
those 14 States also assess that slightly lower fee on plug in 
hybrid vehicles. These fees range from $50 to $225 per year, 
and the fee revenue is most often directed toward a State 
transportation fund. However, at least three States allocate 
some fee revenue to support EV charging.
    Additionally, at least five States structure the additional 
registration fees to grow over time by tying them to the 
consumer price index or another inflation related metric. Along 
the same lines, States have also been enhancing registration 
fees for traditional passenger vehicles.
    Since 2017, at least 12 States have enacted legislation to 
enhance registration fees for traditional vehicles. California 
and Utah are among States that recently have indexed their 
registration fee to CPI, so it will be increasing over time and 
doesn't necessarily have to go back and be adjusted constantly 
by the legislature.
    With the kind of growing ubiquity of transportation network 
company services, such as Uber and Lyft, States and local 
governments have been looking at how to kind of address the 
impact of those services. At least 11 States and Washington, 
DC, have enacted laws creating additional fees for 
transportation network company rides and fares. Most of these 
States use these fees to administer TNC regulatory oversight. 
At least four States, Georgia, Maryland, Massachusetts, and New 
York, as well as DC, use some of the fees to in part support 
transportation projects in their State.
    Let's talk a little bit about road user charges, RUC. I am 
going to refer to it commonly as that. Dr. Hendren and Jack and 
Bob all kind of weighed in on that to a certain extent.
    States have been on the forefront of studying road user 
charging since the early 2000s, when Oregon first started 
looking into it, and many States are currently exploring RUC 
systems. Many of these efforts have been supported by the 
Federal Government via the STSFA Grant Program, Surface 
Transportation System Funding Alternatives. Fourteen States 
have been awarded STSFA Grants, although when you kind of 
calculate the Eastern Transportation Coalition and then RUC 
West, the reach of the number of States involved, in some ways, 
is even higher than that.
    It is worth noting that there are two operational RUC 
programs in the country today. Oregon and Utah both have them. 
Oregon's has been around for a few years, I think since 2016, 
now. Utah has just started recently. They are both voluntary 
and both created at the behest of their State legislatures. 
Oregon's program is open to any vehicle over 20 miles per 
gallon, while Utah's is currently open only to electric and 
hybrid vehicles.
    Virginia's RUC program will go live in the summer of 2022. 
Oregon, Utah, and soon Virginia will allow drivers of plug in, 
hybrid, and electric vehicles to not pay the full enhanced 
registration fees if they participated in a State RUC program.
    There has been a lot of legislative interest in this in 
2019 and 2020. At least 19 States considered 34 pieces of 
legislation addressing RUC. Of those, seven States enacted 
eight pieces of legislation. Thus far, in 2021, there are 12 
States considering RUC related legislation.
    I realize I am short on time. I just want to quickly talk 
about public-private partnerships. There has been some 
discussion about kind of access to capital and using the free 
market to kind of help build some of these, especially big 
projects. Thirty-eight States, Puerto Rico, and DC statutorily 
operate P3s for the transportation sector. State enabling 
statutes range from project specific to limited authority based 
on project size to broad comprehensive frameworks for P3 
agreements.
    The most common type of transportation P3 tends to be a 
tolled facility, but P3s don't necessarily equal tolls, and 
tolls don't necessarily equal P3s. In other words, owners of 
the road, a State DOT or a local government, could build a job 
the old fashioned way or have a private contractor do the 
design build, and then the DOT can charge the tolls themselves.
    States have undertaken non-toll P3 projects with their 
private partners, such as bundling bridges in Pennsylvania and 
transit projects in Maryland. Colorado, Louisiana, and Virginia 
are some of the States known for having a robust P3 State 
structure and project portfolio.
    So, with that, I want to wrap up and just say we applaud 
Congress for taking this initial step to examine potential 
methods to ensure sufficient and stable long-term Federal 
transportation funding and encourage continued outreach to 
States to develop and shared long-term vision for funding and 
financing surface transportation systems that will enhance the 
Nation's prosperity and quality of life for all Americans.
    Thank you very much for having me.
    [The prepared statement of Mr. Shinkle follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    Senator Carper. Mr. Shinkle, thank you, and thanks to all 
of our witnesses. I don't know about the rest of my colleagues 
here and joining us virtually, but I think this is fascinating 
stuff.
    I am sitting here thinking about Dwight Eisenhower and his 
leadership, which got us started on the interstate highway 
system. Transformational for our country.
    We are on the cusp of another transformational change in 
the way we not just build our roads, highways, and bridges, 
build back batter, also in the face of climate change and do so 
at a time when we are trying to figure out how to pay for this 
stuff and in ways that make sense and are acceptable 
politically and just make good common sense economically, too.
    Mary Frances Repko has given me, our staff has just given 
me a list of names here in order or recognition, and this may 
change a little as people pop up virtually. I am going to lead 
off, followed by Senator Capito, Senator Cardin, Senator 
Inhofe, and if he returns, Senator Whitehouse, Senator Cramer, 
and Senator Lummis.
    I will just start off, if I could.
    First question is, where do you agree? Where do our 
witnesses agree? Pick a major point or two where you think 
there is consensus among the witnesses who are here testifying 
today, and tell us, where do you agree? Just be very brief. 
Take a minute, no more than a minute for each of you.
    Mr. Kile, where is there consensus? Where is the common 
ground? Go ahead.
    Mr. Kile. I think the thing where there is agreement at 
this point is that there is a shortfall in the trust fund in 
the coming years. Most of the other panelists have spoken of 
policy choices. They are all representing particular positions.
    CBO does not have a particular position on what the 
Congress ought to do, and so I will basically stay silent on 
other areas of agreement or disagreement. My testimony mainly 
focused on options for you and your colleagues.
    Senator Carper. All right, thank you.
    Mr. Basso, Jack, where do you see areas of agreement 
amongst the five witnesses? Go ahead.
    Mr. Basso. Thank you, Mr. Chairman. I see a minimum of 
three areas. No. 1, action has to be taken if we are going to 
be successful in implementing a major and futuristic 
transportation infrastructure investment program.
    Second, that the gas tax, and you know better than I do the 
political reasons why we can't just raise the gas tax, would 
prove that.
    The second point is that two commissions and a lot of other 
study has suggested that per mile costs and travel as a billing 
cycle is a way to accomplish this and take into account the 
changing mix of the fleet. Electric vehicles will become far 
more prominent in the near future than we would have thought 10 
years ago.
    I think the last thing is that a national pilot is 
definitely necessary if the Federal Government is going to 
engage in this activity, and I think we will, and to accomplish 
what we can learn and deal with all the attendant issues.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Mr. Basso.
    Dr. Hendren, where do you see areas of agreement, 
consensus, amongst the five witnesses, please?
    Ms. Hendren. Chairman, I am going to go back to your 
comments in your opening remarks about not compromising on 
principle. I think what we keep hearing is the need to get back 
to the user pay principle, and that came up in everyone's 
comments.
    So I would really focus on that as a big reason why we are 
here, and the concept of pay for what you use, it resonates. It 
resonates with the public; it resonates within this room, and 
outside this room. So that is encouraging, that we can have 
this transformational change for the future.
    What I see is Federal leadership, again, thanks to this 
Committee to have that grant program that has built momentum, 
and that momentum has been remarkable in the last 4 years.
    But I do think having continued State level work is going 
to be important, again, kind of getting that groundswell of 
understanding in combination with that Federal leadership and a 
national education campaign about the importance of 
transportation. That is why we are all here today, and the need 
for change. So that is where I see we really are all in 
lockstep on this topic.
    Senator Carper. Great. Thanks, Dr. Hendren.
    Dr. Kile, where is the agreement? Where do you see the 
consensus, please?
    Mr. Kile. Did you mean to call on me?
    Senator Carper. No. I have gotten out of line here.
    Mr. Poole, yes, thanks very much.
    Mr. Poole.
    Mr. Poole. There we go. I am on now?
    Senator Carper. Yes, you are. Go right ahead.
    Mr. Poole. I think we all are in agreement, apart from CBO, 
that we need to replace per gallon fuel taxes with per mile 
charges, in some form or another. Second, I think we all agree 
that we need to invest more in our transportation system, for 
sure, and that the Federal Government has a continued role to 
play in research and development on the idea of how do we 
implement per mile charges in a way that is going to work and 
be affordable and politically acceptable.
    I think we all agree that the user pay principle is very 
important. I think I am the only one that stressed users pay, 
users benefit as the second aspect of that, but I think there 
is a remarkable amount of consensus here. Thanks.
    Senator Carper. Yes. Thank you very much.
    Going to our last witness, Mr. Shinkle, please.
    Mr. Shinkle. Yes, it is nice when we can all agree on this. 
It is one of the fun things about working on transportation.
    I would agree. I mean, I think States certainly are aware 
of the pressures associated with increasing fuel efficiency and 
more electric vehicles. So they have been already feeling this 
and trying to grapple with this.
    So if the Highway Trust Fund is in trouble, States realize 
that and they are looking for new solutions. It is good that we 
all acknowledge that there is an issue.
    I do really agree that user fees are something that NCSL 
continues to support. As Bob alluded to, they also lead to a 
better system and outcomes in terms of, you are linking, you 
are using something that can have positive impacts on 
congestion, what have you.
    And then continue to engage with the States, this is so 
appreciated, bringing in NCSL on all these folks that are doing 
things out at State and regional, local governments. Continue 
to hopefully give States some seed money so States can continue 
to innovate and try different things and try to make sure that 
we are talking with the public. Because I do really think that 
any change is really going to need public buy in, clearly. A 
lot of times, having local and State elected officials that are 
closer on the ground is a good way to kind of seed those 
efforts and grow trust. Yes, there is a lot of areas of 
agreement, I think.
    Senator Carper. That is great. Mr. Shinkle, thank you. 
Thanks to all of you.
    I will just say, the National Governors Association is 
multi-faceted, but one of the entities within the NGA is 
something called Center for Best Practices. It is a 
clearinghouse for good ideas.
    I think of the States as laboratories of democracy. Many of 
us have held State offices as well, and you know this, and we 
can learn from the States, what they are doing well, and maybe 
not so well.
    All right, Senator Capito, please.
    Senator Capito. Thank you, Mr. Chairman. I just want to 
start out briefly.
    We have heard a lot about VMTs and a lot of different 
acronyms that are used, but I think we understand what the 
concept of that is.
    I want to go back to Dr. Kile just quickly for a 
clarification question. You mentioned that if the VMT was put 
into effect at 1 cent per mile, it would generate $2.6 billion. 
But previously you had mentioned that over 10 years, the 
shortfall is $195 billion. So, we have a big gap here.
    My question is, back to Mr. Shinkle, in some of the States' 
pilot studies, is a 1 cent per mile, is that a marker that is 
been used for success here? Because it is not going to generate 
enough to hit our shortfall at all.
    So Mr. Shinkle, I want to ask you that, about the 1 cent 
per mile. I also want to ask you, there are concerns on 
privacy. We haven't really heard much pushback on that, and 
maybe those issues have been sort of laid to rest through some 
of these State pilot studies. Mr. Shinkle, could you address 
the privacy issue as well?
    Mr. Shinkle. Yes, thank you, Ranking Member Capito. With 
regard to the mileage charge, let me look real quick. I believe 
in Utah, it is 1.5 cents a mile and in Oregon, it is 1.8 cents 
a mile, so somewhere in that range. Most of what the States I 
have seen talking about it, of course, those are the only two 
operational programs that are actually charging, so that gives 
you some sense. Most of the range that I have seen is somewhere 
in that range, and somewhere in between 1 to 2 cents, so I 
would say that is a fairly kind of accurate starting point.
    With regard to privacy, I think you are definitely 
absolutely correct that that is going to be one of the big 
things for the public, kind of perception-wise, to get through 
is how to address this. Some of the things States have done, I 
think, are really interesting, so maybe a couple examples.
    Oregon, when they established their program back in 2013, 
they did work with the ACLU while they were developing that 
program, and that helps kind of get some buy in there.
    A lot of the public feedback that the States that are doing 
the RUC programs or pilots has found that the more familiar 
with the drivers become with the systems, the more they have 
less of an issue with the privacy concerns. I am not saying 
that necessarily addresses all of them.
    Another piece is offering options. That is something that 
California, and I would say Washington and some of these States 
are doing a lot of work on, digging and studying and looking at 
like, 10 different payment options. Some of those are like, for 
example, there are 15 States that do annual or biannual in 
person vehicle inspections, essentially. So those 15 States, 
you theoretically could just do an odometer reading very easily 
within existing State structures and law, and just have an 
odometer reading, and you are in and out, and there is no 
impact on your privacy.
    Now, the flipside or the downside of that is that if you 
travel out of State, or you live on a large private ranch, 
where you drive a lot of miles on private roads, you are going 
to get charged for those miles. So the tradeoff is that having 
that location information is always going to be really helpful 
to ensure that you are being accurately charged and being 
charged as little as possible.
    Some of the other things that States can do is that, 
certainly, I know Oregon and California and Utah have all done 
things around kind of disaggregating the location information. 
I know in Oregon they are only allowed to keep that location 
data for 30 days, and law enforcement has to have a warrant to 
access it. So there are a lot of things that need to be done.
    I think States have taken good steps. I also do think this 
needs leadership at the local, State, and Federal level to 
continue to talk about this and to try and talk about the 
challenge that we don't have enough transportation funding.
    So those are kind of some of my thoughts. Thank you for the 
question.
    Senator Capito. Thank you. Thank you for your insight 
there.
    Mr. Poole, in your statement, you mentioned that if all of 
the money that was generated from the gas tax was put toward 
the surface transportation bill, that it would be much closer 
to meeting the shortfall. Are you referring to the fact that 
funds from that gas tax are moved over to transit? Is that what 
you were alluding to?
    Mr. Poole.
    Mr. Poole. Yes, I understand the question. What I was 
referring to is, if you look at the total amount of revenue 
from the highway user taxes going into the trust fund, versus 
the amount spent, there is only a $2 billion a year gap right 
now, according to CRS, between the spending on highways and the 
revenue from highway users.
    Almost all the shortfall is all the non-highway programs. 
So closing that $2 billion gap would take a very slow increase 
in a user tax, which might be more acceptable to highway users 
if they knew that all the money that they put in was going to 
be spent to better highways. The rest could be simply paid for 
out of the general fund, all the non-highway portions.
    That would be my suggestion for a short-term fix. It is not 
going to solve the long-term problem, but it would make the 
Highway Trust Fund itself solvent.
    Senator Capito. OK. Thank you.
    Senator Carper. All right.
    Senator Cardin. Senator Cardin, to our witnesses, Senator 
Cardin serves as the Chair of the Transportation Infrastructure 
Subcommittee of this Committee and does a great job, and his 
wing person, wingman, on that is someone who has chaired this 
Committee before, Jim Inhofe. They are a good team.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, first of all, thank you, and 
I want to thank all of our witnesses. This panel has been 
extremely informative.
    I sort of share the Chairman and Ranking Member's view that 
we are looking for revenues that can get bipartisan support and 
we can move forward as a Congress. We all recognize we have a 
shortfall, so I find this panel to be very helpful.
    Senator Capito, as I understand it, the 1 cent per mile 
estimate is based upon commercial traffic, which is where the 
pilots are all headed right now. But as our witnesses have 
pointed out, if you are looking at replacing the existing 
gasoline tax, which gives us a lot greater need for revenues, 
we would be looking at a broader mileage user fee. It would 
create additional issues that would have to be resolved before 
we could get to that point.
    So in one respect, we are looking at the mileage-based user 
fees to get us out of the current hole. If we are looking at 
the long-term impact, then we really do need to have other 
questions answered before we can do that.
    One is federalism. How do you impose a national user fee 
based upon mileage and work with our States, because they use 
the gasoline as a revenue source? And how do we sort of bring 
this together under federalism and the interstate use of our 
transportation system?
    I want to sort of challenge on two parts as we move 
forward, and maybe I will start with Dr. Hendren on this first, 
and that is, how do you answer the question, if we move toward 
a mileage-based user fee at the national level, low and middle 
income families being overly burdened? How do you deal with the 
fuel efficiency issues, which is one of our major objectives in 
all of our policies, is to increase the efficiencies of our 
transportation system?
    Ms. Hendren. Senator, thank you for the question.
    I think starting with the first one about the impact that 
this potential shift from the fuel tax to a distance-based 
approach could have on different geographic areas as well as 
socioeconomic groups is work that still needs to be done. I 
think a really important place that we need to start that 
conversation is where we are today with the fuel tax is a 
regressive tax.
    What we found, for example, in looking at rural communities 
versus urban and suburban, is that a lot of rural communities 
are paying more today under a fuel tax approach. With a shift 
to a distance-based approach, they would pay slightly less.
    Senator Cardin. I understand that more work needs to be 
done. I really do understand that.
    Ms. Hendren. OK.
    Senator Cardin. We are impatient right now, because we have 
got to act. So if we are going to act in this Congress to do a 
transformational improvement on our infrastructure, and we need 
to have revenues, but we don't want to adversely impact on 
middle and low income, what do we do?
    Ms. Hendren. I think the benefit of a distance-based 
approach versus a fuel tax is you have more policy levers. So, 
the way you set your rate, I think, is the answer to the 
question. You can have one rate that is the same for everyone. 
You can also look at rates that would vary based on where you 
live, income level, type of vehicle; there are a lot of 
options.
    Again, that is a benefit of this kind of more 
transformational way of funding transportation. So I think that 
is the way to move forward there.
    Senator Cardin. How about on the energy efficiency issues? 
One of the points that was raised was that those who use 
electric vehicles, yes, they are very much impacting on our 
transportation system, but they are also a benefit in regards 
to the impact on our environment, so how do we weigh that 
issue?
    Ms. Hendren. I think what we have seen so far is EV owners 
are actually very willing to be part of a distance-based 
approach. If you look at the Oregon program, a volunteer 
program, almost a third of those volunteers are EV owners, so 
that shows you the choice to be an EV owner is about the 
environment. They do also want to have roads to drive on, so 
those issues are not at odds with EV owners.
    Senator Cardin. I guess I don't understand a voluntary 
program. They voluntarily agree to pay money?
    Ms. Hendren. You can either pay a registration fee or a cap 
amount, or you can do the voluntary program. So if you are an 
EV owner, you are not going to be paying fuel tax today, so if 
you opt into the program, you will be paying more.
    Senator Cardin. But wouldn't you make the judgment based 
upon what you think you are paying less money to the 
government? Wouldn't that be the decision?
    Ms. Hendren. Exactly.
    Senator Cardin. That doesn't necessarily reward energy 
efficiency.
    Ms. Hendren. It doesn't. But I think the reason I am 
bringing that up is, there is a concern that moving forward, 
the distance-based approach will hurt the sale of EV, hurt that 
transformation of our fleet. So what we are seeing out there in 
these demonstration pilots is that is not true in the programs.
    Senator Cardin. If I wanted to transfer to an electric 
vehicle, and I do lots of driving, but I am prepared to do 
that, I am prepared to charge where I need, the charging 
stations, pay for the battery support that I need, how does 
this system benefit that decision I am making to help the 
environment?
    Ms. Hendren. The way we have it now, is you would be paying 
a majority of your operating costs for an EV is that charging. 
They are not paying for fuel tax, which is what we have been 
using to fund our roads and bridges.
    So if the question is, what is the motivation for the EV 
owner, it is to support the roads and bridges on which they 
drive, so you are correct. If they are like, that is not cost 
effective for me, they could choose not to.
    But what we are finding is a very openness to be part of 
the solution to have those roads and bridges to drive on. But I 
think your point about fuel efficiency, that is where our real 
challenge is right now, as far as the revenue loss from these 
much more fuel efficient vehicles.
    So I look at Virginia's program as a real example of how to 
address that revenue loss from fuel efficiency. We have kind of 
two issues, and they kind of get merged, so I think looking at 
fuel efficient vehicles and looking at EVs, and this approach 
can address both of those types.
    Senator Cardin. You are absolutely right. The revenue loss 
is the environmental gain. You have to weigh it.
    Thank you, Mr. Chairman.
    Senator Carper. Really good questions. One of the issues 
that Senator Cardin raised was actually addressed in part at a 
hearing yesterday. He and I sit next to each other on the 
Finance Committee, as well. He finds it hard to get rid of me.
    Our witness yesterday was Commissioner Rettig, the 
Commissioner of the IRS. One of the issues that I raised with 
him is for the concern on raising a gas tax, user tax, user 
fees, our concern is how do we help make sure that lower income 
families, at risk families, don't end up bearing an inordinate 
amount of burden?
    And I asked him too, this question, for the record, I said 
why don't you see if there is some way that we can provide 
through the tax system a rebate of some kind to go to families 
whose income is maybe below the median average in the country 
to help make them whole with some assumptions on how much gas 
and diesel they use? So, we will see.
    OK, Senator Inhofe, you are up, please.
    Senator Inhofe. Thank you, Mr. Chairman. Last hearing, I 
entered into the record an effort to protect the ban on 
Government controlled interstate rest areas. I know that some 
of our witnesses, I understand that Mr. Poole probably 
disagrees with this position, but it is one that we felt pretty 
strongly about.
    I want to enter into the record this time, it is a similar 
letter. It is signed by stakeholders that we all know, such as 
the National League of Cities, the National Restaurant 
Association, Energy Marketers of America, and a lot of others, 
which talks about the value of the private sector investment 
across the Nation's highway network. I think the rest stops 
would give the Government, if they were Government controlled, 
an unfair monopoly. So this letter is one that covers that, and 
I want to have that as a part of the record.
    Senator Carper. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    Senator Inhofe. It is kind of interesting. Ben Cardin and I 
were both elected in the same year, 1986, and we have been 
dealing with this all these highway bills ever since that time. 
So we have a lot of seniority on these issues.
    One of the interesting things I always like to point out to 
my friends and witnesses at such hearings is this: Most of them 
are too young to remember this, but I remember one of the 
biggest problems we had in the Highway Trust Fund is we had too 
much surplus, and so everyone's trying to rob the surplus.
    One of the worst offenders of that was Bill Clinton. He 
actually took--I can't remember how many billion dollars was 
out of that. It took me about 2 years to get it all back in, 
anticipating that we would have the problems that we are having 
today.
    One of the unique things about this is, this is a program 
that everyone agrees with. I can remember a lot of the 
Republicans who were running for President a few years ago were 
trying to each one be the most conservative, more conservative.
    One of our people who went back actually was one of the 
candidates from, I shouldn't say this, but from Kentucky. He 
got up there, and all the transportation people jumped all over 
him. You are running for President, and we don't want--and he 
said, oh, I wasn't talking about transportation.
    See, we have that benefit that people all fall into 
agreement that we want to have that system. So anyway, I was 
glad, this is the first time that I have heard that all of our 
witnesses came in agreement knowing that there should be a user 
pay concept.
    I have been saying this when it was very unpopular to say 
this, and now I think it is more popular than it was at that 
time, so I think we are making some headway in this area. I 
would like to make sure that there is no one here--what we all 
agree is, we do need a long-term highway bill to give the 
States the certainty and predictability. I would assume, if 
there are any of our five witnesses who don't agree with that, 
say so now. Because I believe that is a concept that we all 
agree on.
    I think also the fact that we are now looking at something 
on the electric vehicles on paying their fair share, and I just 
rejoice in the fact that people are talking about that now, and 
it is popular, and it is very fair.
    Now, Mr. Shinkle, I understand that nearly 30 States have 
passed electric vehicle fees to help pay for the road. I would 
like to have you elaborate a little bit on, have these revenues 
been used to invest in roads and bridges? Has it been 
successful? We are looking at this right now in our State of 
Oklahoma, and so I would like to have you explore that a little 
bit on what has been workable in the past.
    Mr. Shinkle. Yes, thank you for that question, Senator 
Inhofe. Twenty-eight States have enacted fees on electric 
vehicles and 14 on hybrid vehicles. That money is, except for 
three States, that money is pretty much going into 
transportation projects.
    Sometimes transportation projects are a little more broadly 
defined to include a little bit of electric charging stations 
and things like that. Generally, for the most part, that money 
is going into the State fund that pays for transportation 
there. Given that no State, I don't believe, has more than 2 
percent or I think even at the most of their personal vehicle 
fleets that are electric vehicles, the amount of money thus far 
isn't really substantial.
    Now, that is going to start to change, and it is going to 
become more important. I think every year it is going to become 
more important, frankly, especially within 5 to 10 years as 
that kind of bridge until we do figure out if we are moving to 
a RUC or what are we going to do.
    But the short answer is there is not necessarily a lot of 
money there, it is really more of an equity kind of concern at 
this point. If there is a group of vehicle owners, in many 
cases, which tend to be but not always are higher income that 
weren't paying to be part of the system at a time when the 
system needs more money in.
    So that was a lot of the rationale behind that. I am happy 
to provide more information on how the States have exactly been 
spending that money in the follow up testimony, but it is 
mostly for State transportation projects, maintenance, and 
operation, what have you.
    Senator Inhofe. For the record, any elaboration on that you 
can get, that would be very helpful to us. I think this hearing 
has been very helpful.
    The question that we get, one of the differences between 
witnesses and people sitting at this table is, you guys don't 
have to run for election. The first thing when we hear a VMT 
system or one of these other systems, the first thing that 
comes to me is the questions that people are always asked when 
we talk about this publicly, the only question they have is, 
how much is it going to cost me?
    Anyone have a good idea on a good answer for that question? 
No, I didn't think so.
    All right, thank you very much, Mr. Chairman.
    Senator Carper. I would just say to my colleague, as you 
know, I have talked to a lot of Governors and a lot of State 
legislators, and I know you have too, but those who have in the 
last decade, not in the last 5 or 6 years, who supported 
increases in traditional user fees in their States have 
actually been more electable rather than less. It is pretty 
amazing.
    I think next is Sheldon.
    Senator Whitehouse, please.
    Senator Whitehouse. Thank you, Chairman.
    Thank you to all the witnesses.
    I want to pick up on the same topic that we have been 
talking about, which is how we get electric vehicles to pay a 
fair share of the use of the road. But I come at it from a 
slightly different perspective, because I have this Consumer 
Reports information here that shows the number of States in 
which what is charged electric vehicles is higher than what is 
charged internal combustion engine vehicles.
    In some cases, it is not a huge difference. It is 40 
percent more, 20 percent more, 36 percent more. But in some 
cases, it is nearly triple. The expectation of Consumer Reports 
is that these are going to continue to trend upwards with 
electric vehicles being charged as much as four times what an 
internal combustion engine vehicle is charged.
    So I think that as we address this issue, and we address it 
from an equity point of view, it is going to be important, 
looking at whatever kind of a highway funding program we put in 
to make sure that this is not being used as a mechanism to 
suppress to development of electric vehicles. It is hard for me 
to see a reason why it should be more.
    I don't know if any witness can identify a manner in which 
an electric vehicle is harder on the highways and bridges than 
an internal combustion engine powered vehicle. If these were 
great big trucks that had extra weight--my Governor, who is now 
Secretary of Commerce, Governor Raimondo, put an extra toll for 
trucks coming through Rhode Island. It worked out; I mean, the 
truckers didn't love it, but it worked out pretty well in terms 
of convenience because of EZ Pass, which makes tolling so easy.
    I understood that they do put a lot more wear and tear on 
the roads than a regular passenger vehicle. But an electric 
vehicle, I think, is pretty equivalent to an internal 
combustion engine vehicle in terms of the wear and tear it puts 
on the roads.
    So it doesn't make sense to me why these States, many of 
which have significant fossil fuel investment in them and 
fossil fuel activity in the legislature would be charging a 
higher fee against electric vehicles than they do internal 
combustion engines, unless they were actually trying to 
suppress electric vehicles so that we could continue to burn 
more gasoline and continue to pump carbon dioxide into our 
atmosphere and continue to pollute, and obviously none of that 
is a very good thing.
    So, I hope as we try to solve this, Mr. Chairman, we will 
keep in mind that it really would not be appropriate for States 
to use this predicament that we have right now to pick winners 
and losers as between electric and internal combustion engine 
vehicles. There is no statement of what the purpose is in any 
of this, so we will look into it further.
    But my surmise would be based on the location of the States 
and the lack of any apparent justification for charging 
electric vehicles more that this has something to do with 
trying to suppress the growth of electric vehicles. I don't 
think that is a winners and losers contest that we should be 
in, and it is not a contest that I think we should allow the 
States to get into because of all the other collateral costs of 
suppressing the growth of electric vehicles.
    So, that is what I wanted to mention today. We have done 
highway work in really strong bipartisan fashion before, and I 
think it really is important that we take care of our roads and 
bridges and the traditional infrastructure for automobile 
transport.
    But I will be extremely concerned about any proposal that 
we adopt that allows for this kind of selective choosing of 
winners and losers and deliberate suppression of consumer 
choice toward electric vehicles, particularly if we discover 
that the fossil fuel industry has had its hand in the politics 
of any of these places and getting those fees to be jacked up 
to where it costs more to own an electric vehicle than it does 
to own an internal combustion engine vehicle.
    With that, I am happy to yield back the rest of my time, 
and I look forward to working with everybody to get a good 
bipartisan bill going on this and continue to develop our 
infrastructure.
    Senator Carper. I think we all share that view; that is 
good.
    One of the things that I mentioned earlier, as Senator 
Whitehouse said, during the break, one of my sons came home 
from California, and we just went out and drove all kinds of 
vehicles. I will say this: Those electric vehicles are a lot of 
fun. They are just a hoot. They have got a lot of torque. He 
and I both felt like kids at the end; he still is.
    All right. I think next is Senator Cramer, please.
    Senator Cramer. Thank you, Mr. Chairman.
    Thanks to all the witnesses, and I agree with a lot of what 
has been said, largely over the fact that we are unified in the 
goal. The details will kill us, eventually, probably.
    In the meantime, I do think there is a lot of common 
ground.
    Certainly, Mr. Chairman, to your opening statement, I 
remain committed to principle while having an open mind to the 
policies that will get us where we need to get, and I think we 
are off to a good start right here.
    I would like to say, Senator Whitehouse raised an important 
point, and it is hard to know what any individual or group of 
States might be doing. Maybe we can get an answer to that in a 
little bit. But I think a lot of those fees are registration 
fees. When you break it down to the use fee, it is probably 
less, not more.
    The other thing I would mention, in some of the studies I 
have seen, at least to this point, the California, UC Davis 
study showed that 30 percent of the people who drive an 
electric vehicle make over $150,000 a year, and the next 
50,000, from $100,000 to a $150,000 a year make up another 20 
percent. Earlier, we were talking about some of the 
socializing, what I call social engineering here, with regard 
to it not hurting people at the lower income level.
    Well, electric vehicles so far seem to be driven by people 
at the higher income level. I don't know that that is relevant, 
but I think as we are discussing all these things, it is worth 
noting.
    Also, I appreciated, Doctor, your reference earlier in 
answer, I think it was to Senator Cardin. There is nothing, no 
tax hardly more regressive than the gas tax itself. So the idea 
that a user fee for electric vehicles is going to be worse for 
lower income people than the gas taxes would be hard, I would 
be hard pressed to see that. We could design it that way, I 
would hope we would avoid that.
    So there is a lot of opportunity here to bring equity to 
all of the structures, and that would be, hopefully, the goal.
    Also, with regard to that, and I want to get to some of the 
things that Senator Cardin was talking about when he talked 
about gas fueled vehicles. Obviously gas fueled vehicles emit 
greenhouse gases, CO<INF>2</INF>. But nothing in the fuel tax, 
to this point, is designed to address any of that. It is not a 
punitive tax. It may look punitive sometimes, but there is not 
a carbon tax added on to it.
    So when we start talking about, I think, Ben's parting 
comment was the loss of the gas tax is the environment's gain; 
well, that is true. That is a true statement. We are building 
roads and bridges and maintaining them; we can't do it with 
less money. We are trying to find a way to get more money in an 
equitable fashion.
    So I just want to make sure we keep the main thing the main 
thing when we are talking about transportation infrastructure, 
and some of the other things, being important, don't get us off 
the rails here.
    I do want to ask Mr. Shinkle a question, because obviously, 
the focus of this hearing is on the revenue side. But it also 
addresses, in the description of course, a reference to funding 
consistency, or sustainability, or funding uncertainty.
    In the White House's rollout last week, they talked about 
changing the formula, the Press Secretary referenced a 
different formula, a grant formula, rather than the traditional 
formula.
    Mr. Shinkle, I would like to know what States might feel 
about a different type of program. Just as an example, the 
INFRA Grant Program has existed for over 5 years. In my State, 
we have never received one. In the big, wide open west, I don't 
feel like setting aside 400 miles of gravel to hook up our 
interstates. I don't think that would serve very well.
    So just a question, Mr. Shinkle, about the commitment to 
funding certainty by trading the traditional formula for a 
competitive bidding process, as per the Press Secretary in the 
White House.
    Mr. Shinkle. I will probably have to be a little bit 
careful about what I say. I think that I would have to know 
more about that exact proposal.
    But I would say that States are pretty comfortable with 
existing formulas that are in place to transfer money from the 
Highway Trust Fund to the States. Anything that would deviate 
from that and reduce the flexibility for States to be kind of 
nimble in their States to respond to infrastructure challenges 
out there is something they might be skeptical of. Otherwise I 
am afraid I can't answer in any more depth than that, but I 
could look into that some more with my team, and we can get 
back to you with a more detailed answer.
    Senator Cramer. Thank you.
    As my time has run out, Mr. Chairman, just again, thank you 
for a very good hearing, a very good start to this discussion, 
really the second one. I am keeping my mind open, because I 
think there is a lot of opportunity.
    By the way, I think we ought to go big. I really do. I want 
to aim high. This is a moment, and this is an opportunity, and 
I think there is an opportunity to do exactly that with these 
people.
    Senator Carper. Aim high, there is more room up there. That 
is good.
    I said to Adam, who's staff director for the minority, and 
to Mary Frances, and Rebecca Higgins, I am very pleased with 
this hearing. I think it is an extraordinary hearing with 
extraordinary opportunity.
    I think next up is Senator Kelly, who has somehow slipped 
in here, and we are going to yield to him next, and then 
Senator Lummis, you are next.
    Senator Kelly. Thank you, Mr. Chairman.
    Dr. Hendren, in your testimony, you discussed the 
importance of taking into account drivers in different 
geographies when considering options to address the Highway 
Trust Fund shortfall. In particular, you discussed rural 
communities where driving far distances is often needed for 
basic necessities like going to work or visiting grocery stores 
or accessing health care.
    As a result, Arizonans, the State that I represent, living 
in rural communities often pay for gasoline more often, making 
them more impacted by a gas tax increase. As Congress considers 
solutions to fund the Highway Trust Fund, are there any 
proposals out there which are less costly for residents of 
rural areas than the gas tax?
    Ms. Hendren. Senator, I think you hit the key point 
directly on target, which is currently, rural communities are 
paying more in fuel tax, given the distances they need to drive 
to get their daily life activities done, as well as the 
vehicles in which they are driving.
    So I think that is the place we need to start, is exactly 
your comments. If we look forward at a transformational way to 
have a sustainable funding source, the analysis that we have 
done so far using State data shows the shift to a distance-
based fee will result in slightly less payment for rural 
communities. So that is a start.
    I think how we look and design the rates of that future 
user-based system need to take into account the different ways 
people use our roads. So I think that is an opportunity that we 
have at this new way going forward.
    Senator Kelly. What kind of research has been done on user-
based fees to date?
    Ms. Hendren. Sure. So, what we recently did in several 
States on the eastern seaboard, is we basically took States and 
we divided them into different communities and how people move. 
You have rural communities, you have mixed communities that 
look rural but are going into the cities, and then you look at 
what type of vehicles they have, look at how many miles they 
drive. Then we looked today in fuel tax versus tomorrow in a 
distance-based fee.
    So, doing that data specific, data driven analysis has 
enabled me to go to rural legislatures in North Carolina who 
are very concerned about this idea for their constituents and 
say, this is what the data is showing us. I am a data person, 
so that is where I like to start, because it starts the 
conversation. When you put the numbers in front of people, it 
makes them say, OK, maybe the way I thought today was isn't 
exactly as I thought, so let's talk about tomorrow together. 
That is the work we have started to do.
    Senator Kelly. I appreciate you looking and going to the 
data. That is near and dear to my heart. Thank you.
    Mr. Kile, I have got a couple more minutes here. I want to 
ask you about how the coronavirus pandemic has affected fuel 
consumption and gas tax revenues. The Arizona Department of 
Transportation recently reported that year over year, State 
fuel tax revenues were down 13 percent in 2020 compared to 
2019, which in turn, has affected funding for many surface 
transportation projects in Arizona.
    Some of this decline was likely due to the initial stay at 
home orders last spring, but long-term telework and virtual 
schooling have kept drivers off the roads. I am concerned that 
if these trends continue, the stress placed on the Highway 
Trust Fund could be more significant than expected.
    Mr. Kile, in your testimony, you indicated that it would 
require about $195 billion, I believe, in general fund revenue 
to cover the Highway Trust Fund shortfall over the next 10 
years. Did those calculations take into account these long-term 
trends that seem to be out there, which were accelerated by the 
pandemic, more telework, fewer in person activities, which in 
turn results in fewer Americans on the roadways?
    Mr. Kile. I think the long run effects of the pandemic and 
perhaps changes in lifestyle that might occur are still being 
sorted out. There was obviously a reduction in driving over the 
course of the last year, relative to recent history.
    I know for the trust fund itself, they are still working 
out exactly the implications of the last year for revenues to 
that fund, and we would have to get back to you with specifics. 
We would be happy to do that. But I believe that that is 
actually not entirely sorted out by IRS.
    In terms of longer run trends, it really does depend on 
what happens to mileage in the future and the number of vehicle 
miles in the future, and then also the fuel efficiency or the 
fuel economy of the vehicles driving those miles.
    Senator Kelly. Well, thank you, Dr. Kile, and thank you, 
Mr. Chairman.
    Senator Carper. Thank you, Senator Kelly.
    And now the moment we have all been waiting for, Senator 
Lummis.
    Senator Lummis. Well, thank you, Mr. Chairman. It is a 
great hearing. Thank you for doing it.
    Mr. Kile, we know that not all vehicle miles traveled have 
the same wear and tear on the roads. We haven't had a cost 
allocation study since 1997. Can you talk about the type of 
information that Congress needs to get from a more recent 
study?
    Mr. Kile. The cost allocation study is, in fact, quite old, 
as you noted. I think the basic points about the cost from past 
cost allocation studies have been that the cost of passenger 
vehicles is mostly felt through congestion in larger urban 
areas, and then through the environmental externalities from 
gasoline consumption. For heavy trucks, it is mostly based on 
pavement damage from those trucks. I think it would be 
enormously helpful for the policy community if there were a 
more recent cost allocation study.
    Senator Lummis. Thank you.
    Should there be, Ms. Hendren, should there be some sort of 
a congestion pricing or some other mechanism that could reflect 
those differences?
    Mr. Kile. Well, whether there should or should not is a 
decision obviously for you and your colleagues. Under the 
current system, though, consumers don't basically see the costs 
of their contributions to congestion. We all sit in congested 
highways, but the users don't bear those costs that they impose 
on other people.
    Senator Lummis. Ms. Hendren, have you seen any formula that 
reflects congestion pricing?
    Ms. Hendren. The work that we are doing in our 
demonstration pilots, we are exploring if this technology of a 
user-based fee could also be used as a congestion mitigation 
approach. The view that we have is our cars are changing, as 
Senator Carper said, the times are a-changing, our cars are 
changing, our drivers are changing. So as we change the way 
that we potentially fund transportation, what other concerns do 
we have?
    So, what we have seen so far, we did a proof of concept 
looking at cordon pricing around a city to say, could the 
technology of a distance-based fee handle bringing in different 
variable prices on time of day or location? And it looks like 
the technology can, so we need to do more work there. Again, 
the idea is how can we simplify how people pay for 
transportation? How can we look at collecting that revenue in a 
cost efficient manner?
    So, we are using the grants, again, that this Committee put 
in place to really kick the tires on this concept. We have some 
preliminary finding. I am happy to submit more of our findings 
when we are finished with them to this Committee, but we have a 
little more exploration to do there.
    Senator Lummis. Thank you. We would love to see that when 
it is available.
    Mr. Poole, I was really pleased to see you advocated for 
removing the mass transit account from the Highway Trust Fund 
in your testimony. Is there a user fee model out there that we 
could apply to mass transportation so highway users are not 
subsidizing mass transportation, and thereby removing adequate 
funding from highways and bridges?
    Mr. Poole. Thank you, Senator. The problem is that the 
costs of operating and building and operating and maintaining 
our transportation system are vastly higher than the amount of 
revenue that gets generated from passenger fees. In the 
research community, one idea that is looked at a lot is 
something called value capture, real estate value capture.
    For example, in a major city like New York or in 
Washington, DC, where you have subway stations, you can 
actually measure that there is significant increases in the 
land value of being located within proximity to those stations. 
But yet that value is captured by the real estate owners, not 
by the transit system.
    By contrast, the systems developed and operated in Hong 
Kong and Tokyo and other major cities in Japan have built in 
value capture as part of the funding and financing mechanism. 
So the problem is since we haven't done that, and most of these 
facilities are already built, it is difficult politically to 
all of a sudden say, well, you guys have benefited from real 
estate value increases. Now we are going to take some of it. 
But that is a mechanism that actually would generate revenue if 
we could figure out a way to do it. It is fairly, pretty 
substantial revenue on an ongoing basis.
    Senator Lummis. Thank you for that.
    For any of you, has anyone ever looked at a user fee tax on 
tires? I know that there is some tax on tires for commercial 
vehicles, but what about passenger vehicles? A user fee on 
tires, it could be assessed either at the point of sale or 
earlier in the manufacturing process. That would capture 
electric vehicles as well as gas vehicles.
    Does anyone have any information on that kind of a concept? 
Has anybody studied that?
    Senator Carper. Dr. Kile, do you have any thoughts on that? 
I am pretty sure there is a Federal tax excised on what trucks, 
large trucks pay on tires, I think. Dr. Kile, is that true?
    Mr. Kile. Yes, there is a tax, a Federal truck tire tax for 
commercial vehicles. We have not looked at that for passenger 
vehicles.
    Senator Lummis. Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Senator Lummis follows:]

                 Statement of Hon. Cynthia M. Lummis, 
                 U.S. Senator from the State of Wyoming

    I appreciate the opportunity to weigh in on the important 
topic of infrastructure funding.
    Finding a long-term, reliable funding source for the 
Highway Trust Fund must be the top priority as we work on an 
infrastructure bill. Right now, it is a trust fund that we 
can't actually trust. Congress just passed a $2 trillion relief 
bill that will be paid for by future generations. I do not want 
to further burden them with paying for the infrastructure we 
are using today.
    I am also concerned about suggestions that Congress could 
use corporate taxes or even a carbon tax to fund 
infrastructure. These proposals take us further and further 
away from a user fee model.
    User fees have different qualities than general taxes, 
primarily that the user is able to see the direct benefits of 
those fees. The idea that the people and entities using our 
roads should be the ones paying for them should not be a 
controversial idea.
    We must simply find a way to pay for our roads and bridges 
rather than relying on General Fund transfers; that is what we 
have done since 2008. We have to make the tough decisions now 
so that our children and grandchildren don't pay the 
consequences.

    Senator Carper. All right. Senator Lummis, thanks for those 
questions.
    Senator Capito.
    Senator Capito. Thank you, and thank all of you for being 
here and just--I have a couple comments, and then a quick 
question.
    I think it has been really interesting to see how 
innovative States have been through pilot projects with the 
road user fees or the mileage-based user fees. I think that 
this is something that it seems like we have bipartisan very 
large interest in this, and it is something that we ought to 
really consider as we are moving forward. I am encouraged by 
that.
    I would like to, and I am a little puzzled, because I think 
the Secretary of Transportation in his public statements has 
not only removed the gas tax increase from a possible revenue 
source, but also the vehicle miles traveled idea and concept 
as, they kind of took that off the table rather rapidly, which 
I was sort of surprised about. So we will have to circle back 
with that.
    One of the things that I think we don't talk enough about, 
and I am not really sure, obviously, what we are looking here 
for is enough revenues to meet our needs and to meet not just 
the needs now, but the needs of the future.
    Mr. Shinkle, you talked about public-private partnerships, 
and that some of that was tolling. We know tolling is very 
unpopular in a lot of areas of all of our States and is 
difficult for State leaders to move forward.
    What other ideas, how else can we bring the private sector 
into this? Obviously, they are the beneficiary, whether you are 
a car manufacturer, tire manufacturer, refinery, all kinds of 
different electrical and technical parts of an automobile or a 
truck. How else can we bring the private sector dollars into 
this to help us match our public dollar investment? Do you have 
any other ideas on that? It is a big question.
    Mr. Shinkle.
    Mr. Shinkle. Yes, Senator Capito, thanks for that. I do, 
and I think, along the lines of P3s and I think it is pretty 
fair to characterize that public-private partnerships, P3s, are 
perhaps underutilized in the United States, certainly compared 
to our comparative Canada, United Kingdom, Europe, et cetera, 
even Latin American countries. Some of that is kind of a lack 
of statutory and certainty and having the correct process set 
up.
    Now, having said that, a lot of States have done a lot of 
great things with regard to P3s, and they have been successful 
with a lot of projects and delivering projects that have been 
on time and for less money, and with all of the kind of 
efficiencies in intellectual and physical capital that the free 
market and companies have that a State DOT or a State doesn't 
necessarily have. So I do really think there is a role there 
for private companies to play in some way.
    I think that probably asking someone from industry is the 
way to get the best answer. But they need some more regulatory, 
statutory certainty. They need some idea that if we submit a 
bid, and it goes through, and it is accepted, then this project 
is going to go forward.
    But as you alluded to, especially when it comes to tolling, 
that starts getting really difficult. You have to make sure 
that you have the public buy in, or else you are going to have 
this conflation of tolls constantly with P3s, and that makes it 
difficult.
    Now, having said that, there are examples of where you can 
do P3s, you can have a large project. I think a good example is 
in Pennsylvania. They are doing 500-plus bridges, smaller 
bridges. They bundled them together. You bundle a bunch of 
similar-ish projects together, and by doing that, you achieve a 
scale.
    That doesn't involve any tolls, it is just that, you know, 
it is easier for a private company, perhaps, to replace, repair 
those 500-some bridges than to have the State DOT do it. They 
can do it quicker and more efficiently, and you have them bid.
    I believe in Pennsylvania, they are using money from their 
bonding to pay for that. So that is an example of a P3 without 
a toll.
    There are other examples out there. There are transit P3s, 
and a lot of these are just based on availability payments, 
which essentially means that you did the job correctly, that 
the asset is working correctly, and you are meeting these 
certain metrics. So I think there is a lot there.
    I think, along the lines of what Mr. Poole said, too, 
about, and this isn't necessarily about private, but having 
just access to capital, too, and things like TIFIA, and having 
access to capital is important to States, especially for some 
of these trickier projects. So those are kind of some of my 
thoughts.
    Senator Capito. Thank you. Yes, I think one of the things 
that you are alluding to here, which is a little off topic for 
what we are doing here, but regulatory certainty and efficiency 
in the regulatory process has got to be a part of this bill. I 
think that we reached some consensus on that in our last bill 2 
years ago that we passed unanimously out of this Committee. But 
that would certainly help us as we move forward.
    I would say anecdotally, the State of West Virginia uses 
something called GARVEE Bonds, and don't ask me what they stand 
for, but what they are are basically using future revenues, 
guarantees of future revenues to pay for the construction of 
the highway of today. That is where we have to give this long-
term certainty to our Governors and to our road builders and to 
our users that, in 5 years, you are going to have this amount 
of money. So you can then sort of pre-fund as you move forward 
in anticipation of funds coming in later.
    So thank you all very much.
    Thank you, Mr. Chair.
    Senator Carper. Senator Padilla is trying to do double 
duty. He is at two hearings he is in line to ask questions in 
both of them at the same time, so he is asking questions at 
another hearing, and when he wraps up there, he is going to 
join us virtually.
    In the meantime, I would like to ask a question of Dr. 
Kile. I want to give you an opportunity to discuss the estimate 
of revenues that a 1 cent VMT fee would raise compared to the 
annual shortfall in the Highway Trust Fund in response to the 
question that was raised, I think earlier, by Senator Capito.
    Dr. Kile.
    Mr. Kile. So, one of the options that you have is to assess 
a vehicle miles traveled tax. I think that was just, looking at 
the State setting for the moment, the shortfall in the trust 
fund over the next 10 years is $195 billion. That is a 10 year 
number.
    The illustrative number on vehicle miles traveled taxes is 
$1.6 billion a year, and that is for a VMT tax that would be 
imposed on commercial trucks on all roads, all commercial 
trucks. That is strictly an example both in terms of the base 
of the tax, the number of vehicles that would be taxed, as well 
as the amount. All of those are choice variables for the 
Congress if you go down that road.
    Maybe the only other thing I would say about VMT taxes is 
that implementing them would take a fair bit of work relative 
to what we currently have. There are a lot of implementation 
details that would need to be worked out.
    Senator Carper. OK, thanks.
    A couple of comments I might make while we are waiting for 
Senator Padilla to join us. I oftentimes, my colleagues and I 
oftentimes come to work on the train. A guy named Biden, he and 
I used to train-pool together, and even every now and then he 
still takes the train.
    I used to be on the Amtrak Board when I was Governor. I 
served on the Amtrak Board for 4 years, and we never seemed to 
be able to raise at the fare box, for Amtrak, money to pay both 
for operating costs and capital costs in the northeast 
corridor. I might be mistaken on this, but I don't think I am.
    March, a year ago, just before we fell into the pandemic, 
that February or March, may have been the first month since 
Amtrak was created back in the 1970s where, at the fare box, 
they were able to pay for, because of ridership growth, they 
were able to pay for the operating costs in the northeast 
corridor, and I believe, the capital costs, as well. Ridership 
was about a quarter of a million people per week, and that was 
an all time record.
    The idea of saying that we are not going to use any money, 
and we don't use moneys, as I recall, we don't use money out of 
the Highway Trust Fund to help underwrite the costs of 
interstate passenger rail service. We do use about 20 percent 
of the moneys for transit.
    Folks who ride transit around our country, whether it is 
Delaware, West Virginia, California, Des Moines, those are 
folks who are not going to be using the roads, highways, 
bridges. As someone once shared with me, folks were not riding 
the train if they weren't taking transit. If they were driving 
the cars in the northeast corridor, we would have to build a 
bunch of extra lanes of I-95. So there is an argument for both 
sides, and I will just leave that where it is.
    I want to ask our witnesses, any final quick points that 
you want to make?
    Dr. Kile, any last closing word? Maybe a question you were 
not asked that you want to answer, Dr. Kile, real quickly. 
Thank you.
    Mr. Kile. I would be happy to answer anything that you 
have, but I think I covered the main points that I intended to 
cover in my oral statement.
    Senator Carper. All right, thanks a lot.
    Jack Basso. Jack, thanks so much for joining us, Mr. Basso, 
whom I called Jack, for years.
    Mr. Basso. Thank you, Senator. I think just one point that 
we really do need to address, getting both State and national 
pilots going, and we are going to need additional funding, 
which I know you have in the EPW bill, so that is my only 
additive comment. We really need to move. Thank you.
    Senator Carper. All right. Thank you, sir.
    Next, Dr. Hendren, please. Maybe one last point you would 
like to make, or remake.
    Ms. Hendren. Thank you. So, I think the topic that hasn't 
come up as much today relates to motor carriers. I think again, 
as heavy users and payers of our transportation system, we 
really need to look at our trucking industry separately from 
our passenger vehicles as we go forward on a sustainable 
transportation funding approach.
    You all are very aware how diverse and complex and heavily 
regulated the trucking industry is. I think at the Coalition, 
we have done a very good job of bringing them to the table, to 
the conversation. But I am concerned if we move forward with a 
user-based approach, it does need to address all users, versus 
singling out one of our users on the road. So that comment, I 
just wanted to make sure I had made it clearly.
    Senator Carper. I appreciate your making that point. The 
conversations we have had with the trucking industry, there is 
great willingness to pay their fair share. They are some of the 
strongest supporters for making sure that the users pay.
    Let's see, Mr. Poole, Robert Poole.
    Mr. Poole. Thank you, Senator. I would like to second the 
comment from Dr. Hendren, and caution very seriously against 
singling out the trucking industry to be the place to start. It 
is really, as their findings have found, it is more complex in 
a lot of ways than passenger cars.
    The trucking industry, while participating commendably in 
some of these new pilot programs, has also just published a big 
report making the most pessimistic possible assumptions about a 
truck mileage-based user--well, mileage-based user fees in 
general.
    So there is a lot of persuading still needed and experience 
needed with the trucking industry. The worst thing that policy 
could do it to single them out and start saying, we are going 
to make the trucking industry go first, because that would 
create a backlash that I think would be very, very damaging.
    Senator Carper. Thank you, sir.
    Mr. Shinkle. Then I am going to recognize Senator Padilla 
on Webex.
    Mr. Shinkle, please.
    Mr. Shinkle. Thank you, Chairman Carper.
    Two things I would just reiterate that States do appreciate 
having formulas for funding certainty. So that is one thing to 
mention. And then I think just continue to partner and ask for 
the States to participate.
    This conversation is great. There are a lot of incredible 
insights that are coming from the Surface Transportation System 
Funding Alternatives Grant Program, a lot of different things 
in States. I think it does work to the advantage of us as a 
country at this point, that States are kind of experimenting 
with slightly different ways of doing things, working with the 
public, looking at different payment options, and just playing 
around with what a RUC might look like, as well as 
collaborating with their neighboring States to figure out about 
travel going across States.
    So just continuing to partner with States, and even more 
robust funding for STSFA would be nice. I think that is all I 
would say.
    Senator Carper. All right, thanks, Mr. Shinkle.
    Now, let me recognize Senator Padilla.
    Senator Padilla, thanks for hanging in there and joining 
us. You might be the last Senator to ask a question. Go ahead, 
Senator.
    Senator Padilla. Thank you, Mr. Chair. I will try to be 
brief. I know it has been a long, very substantive hearing. I 
just appreciate the opportunity to raise a couple of points.
    The first, for Mr. Kile. Mr. Kile, in your written 
testimony, you heeded how a road charge system could create a 
greater burden relative to income for lower income households. 
What are some ways that Congress could address concerns of 
equity in exploring these alternative funding mechanisms and 
formulas? And we welcome Dr. Hendren's thoughts on the same 
matter.
    Mr. Kile. Sir, you are correct to note that a road use 
charge that was uniform would impose larger costs relative to 
income on lower income households. In that way, the 
characteristics of that, I think, are probably similar to the 
characteristics of the gasoline tax.
    As for options, that is really something that I would need 
to leave to you and your colleagues for ways to ameliorate the 
effects of that on low income households.
    Ms. Hendren. To add on to my colleague's statements there, 
I think the key part is today, the fuel tax approach is a 
regressive tax, as you are aware. So as we move forward, we do 
have the opportunity of the user-based fee to change how we 
fund transportation and to be smarter about that.
    So I think it is an incredible opportunity that is kind of 
at our feet that we can grab hold of, and we can make sure that 
we go forward in a way that doesn't put a higher percentage of 
household costs on our lower income households for 
transportation. Transportation to me is how we create 
opportunity in our country, so how can we make sure how we pay 
for it continues to open up those doors of opportunity.
    Senator Padilla. Thank you both. A lot of work to do to 
address that.
    The next and final question is for Mr. Shinkle. In your 
written testimony, you noted how the Surface Transportation 
System Funding Alternatives Program has helped 14 States to 
explore road usage charge systems. Additionally, 12 States have 
introduced legislation related to road usage charge so far this 
year.
    In addition to funding, how else can the Federal Government 
best support States as they continue their critical work to 
study and pilot road usage charge programs and similar 
concepts?
    Mr. Shinkle. That is a great question. I think, first of 
all, having a hearing, and thank you very much, Senator 
Padilla, for the question. I think, first of all, just holding 
hearings like this and including the voices of stakeholders 
from the States.
    I think it would be great to hear from, obviously, Dr. 
Hendren is here representing the Eastern Transportation 
Coalition, but perhaps hearing from Oregon and Utah, the States 
that have the actual operational RUC programs. Your home State 
of California is doing a lot of really incredible and 
interesting research, and has been really piloting and looking 
at a lot of different payment options, which I think will be 
important to consider.
    Washington is doing a lot of interesting stuff; Hawaii was 
alluded to before. So maybe hearing from some of those States 
would be another advantageous thing to hear a little bit more 
about exactly what they are doing, because they can really get 
into the weeds of exactly what they are doing and what kind of 
RUC systems they are trying to potentially build.
    Senator Padilla. Thank you, and thank you for the response. 
We have got a lot more work to do, a lot more data to gather.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks, Senator Padilla.
    Well, I think while you were trying to do double duty with 
the other hearing you are participating in, I mentioned that 
the States are laboratories of democracy, and they give us the 
opportunity to find out what works and do more of that, and 
frankly find out what doesn't work and do maybe less of that.
    Anybody else, any of our other colleagues out there on 
Webex or virtually somewhere would like to participate?
    OK. I want to again, thank our witnesses. We had both 
sides, both minority and majority sides of our staffs were 
responsible for putting together our witnesses today. I just 
want to say, I think you all hit a home run with runners on 
base, and we thank each of you for testifying.
    Almost every day, every week at least, when I am on the 
platform waiting to catch the train to come down here to go to 
work, somebody will say to me, I wouldn't want your job for all 
the tea in China. They say that, and I say really? They would 
say, yes. And I said, actually, yes, I feel lucky to do what I 
do. If you think about the opportunities before us here on this 
Committee, we have the opportunity to provide leadership for 
the Senate, and I think for the Congress, in dealing with some 
of our toughest challenges.
    One is this pandemic, how to get out of it, how to get our 
health better and to get through this. We face the challenge of 
an economy; it is the worst economy we have had since the Great 
Depression. I think it is getting better, but we still have a 
long way to go.
    We have a surface transportation system that is in bad 
shape, and we can do better than this, and we need to do better 
than this.
    We can actually sort of address all of those, and climate 
change, terrible adverse weather, extreme weather, that is not 
getting a whole lot better for us. It is getting a lot worse 
over time.
    So we have to opportunity to address all of those, all of 
those. Not all the responsibility lies in this Committee, but a 
good deal. We have the opportunity, again, to provide some of 
the leadership that is needed.
    Our tradition in this Committee is to work across the aisle 
to work together, and we do that pretty well. We will have the 
opportunity to demonstrate that next week when our water 
infrastructure legislation before the full Senate, reported 
unanimously out of this Committee last month, and we hope it 
will move along nicely.
    We are going to take a fair amount of additional input in 
hearings, and just informal conversations over the next month 
and a half. Hopefully before Memorial Day, we will report out a 
surface transportation bill, and we will do it unanimously, and 
in a way that will help make sure that we fund the development 
and improvement of our surface transportation system in a 
sustainable way and with the kind of resilience that we need, 
and provide for beginning to build the kind of infrastructure 
that a lot of us are calling for, including the President, to 
build corridors of charging stations and fueling stations, 
because those vehicles are coming.
    I will close with the words of Mary Barra from about a year 
ago, the CEO of--not even a year ago, this may be 3 or 4 months 
ago, when we were talking about the future of electric 
vehicles, and she said, I am all in on electric. She said that 
is where the future is. She said, we have done about as much as 
we can to improve the internal combustion engine, and we are 
not going to be able to take a whole lot more. The future is 
with electric.
    I would hasten to add it is not just electric with 
batteries, but I think the idea of hydrogen, green hydrogen, 
and doing that in conjunction with fuel cells and creating 
electricity and water as a waste product. There is great future 
in that, and a lot of hope and jobs that can be created from 
it, not just in building the corridors, but actually building 
the vehicles that will use those corridors and reduce the 
threat of climate change to our country and to our planet.
    I love to quote Albert Einstein, and my favorite Einstein 
is ``In adversity lies opportunity.'' Lots of adversity here, 
but also plenty of opportunity.
    Another, since we are talking a lot about cars, I just 
recalled a quote from Henry Ford, who was the father of the 
Model T. Henry Ford used to say, ``If you think you can, or you 
think you can't, you are right.'' If you think you can, or you 
think you can't, you are right. I think we can, and I am really 
encouraged by the input we have received from our witnesses 
today.
    I very much appreciate the work of our staff in bringing 
this together today, for all of our colleagues who have 
participated today. This is, for me, encouraging, and I hope 
for others, as well.
    I have a couple of unanimous consent requests. Can't leave 
here without asking unanimous consent to submit for the record 
a report on the economic impact of public transportation 
investments from the American Public Transportation 
Association. The report describes the way that transit benefits 
both transit users as well as road users, who benefit from 
reduced traffic congestion and traffic safety benefits.
    I have actually alluded to this already, but let's make it 
unanimous consent request as well.
    Also, I ask unanimous consent to submit a letter signed by 
31 transportation stakeholder organizations on the need for a 
long-term solution to keep the Highway Trust Fund solvent and 
in support of inclusion of a nationwide program to test out 
vehicle miles traveled, VMTs, in our next bill. Additionally, 
several other associations and States that have led pilot 
programs have shared letters of support and findings from their 
work. I ask unanimous consent to submit those materials as 
well.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Senator Carper. Let me just turn to my right. Adam, 
anything else? We are good to go?
    Mary Frances Repko, majority staff director? Oh yes, thank 
you, Mary. OK.
    For some final housekeeping, Senators will be allowed to 
submit questions for the record through close of business on 
April 28th. We will compile those questions and send them to 
our witnesses. We would ask for you to respond to them by May 
12th, if at all possible.
    Anything else?
    All right, I think we are good to go.
    Thanks, everyone; it was a great hearing.
    It is time to vote.
    Thanks.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
